TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Successfully Processing Large Corporate
                      Tax Returns Electronically Was a
                    Major Accomplishment, but Eliminating
                      More Compliant Returns From the
                     Audit Stream Is a Work in Progress



                                           May 19, 2011

                              Reference Number: 2011-30-048




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document..


 Phone Number | 202-622-6500
 Email Address | TIGTACommunications@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   HIGHLIGHTS


SUCCESSFULLY PROCESSING LARGE                         service and increasing availability of
CORPORATE TAX RETURNS                                 taxpayer information. Corporate taxpayers
ELECTRONICALLY WAS A MAJOR                            also report that e-filing has reduced the time
ACCOMPLISHMENT, BUT ELIMINATING                       and expense (burden) they spend filing their
                                                      tax returns and related forms.
MORE COMPLIANT RETURNS FROM
THE AUDIT STREAM IS A WORK IN                         Due to numerous process improvement projects
PROGRESS                                              to enhance its audit process for corporations, it
                                                      is very difficult, if not impossible, to isolate the
                                                      impact e-filing is having on audit productivity.
Highlights                                            However, when compared to the years before
                                                      e-filing was mandated for large corporations,
Final Report issued on May 19, 2011                   LB&I Division statistics show that corporate
                                                      audits are taking less time and generating more
Highlights of Reference Number: 2011-30-048           additional recommended taxes.
to the Internal Revenue Service Commissioner          Although e-filing was expected to provide the
for the Large Business and International              LB&I Division with the capability to eliminate
Division.                                             more compliant taxpayers from its audit stream,
IMPACT ON TAXPAYERS                                   this key benefit has not been realized. In each
                                                      of the fiscal years since mandatory e-filing was
Implementing the electronic filing                    introduced for large corporations, a higher
(Modernized e-File) system and requiring large        percentage (roughly one out of four) of corporate
corporations to use it were major                     returns audited in the Industry Case Program
accomplishments. The benefits of the                  were closed with no adjustment when compared
Modernized e-File system are enabling the             to any of the three fiscal years preceding its
Large Business and International (LB&I)               introduction.
Division to better meet the expectations for
efficient, modern service among the large             WHAT TIGTA RECOMMENDED
corporations it serves.                               TIGTA recommended that the Commissioner,
WHY TIGTA DID THE AUDIT                               LB&I Division, ensure projects that are taking
                                                      advantage of e-file data to enhance how returns
This audit was conducted in response to a             are identified and selected for audit include
suggestion by the Internal Revenue Service            methodologically sound plans in evaluating
(IRS) Oversight Board and was part of our             project outcomes. TIGTA also recommended
Fiscal Year 2011 Annual Audit Plan addressing         that the Commissioner, LB&I Division, assess
the major management challenge of Tax                 the current methods of promoting and sharing
Compliance Initiatives. The overall objective of      best practices for working with e-file data and
this review was to evaluate the progress the          use the assessment, as well as the observations
LB&I Division is making to take advantage of          in this report, to adjust current methods, as
the opportunities offered by electronic filing        needed, to better meet examiner needs.
(e-file).
                                                      In their response to the report, IRS officials
WHAT TIGTA FOUND                                      agreed with the recommendations and they plan
                                                      to (1) develop, document, and carry out
As envisioned in the LB&I Division’s                  evaluation plans to assess project results for
business case, meaningful work process                workload selection processes and (2) assess the
improvements have been realized in the                relative effectiveness of the LB&I Division's
years after large corporations were required          current methods of promoting and sharing best
to e-file. Notably, the accomplishments               practices for working with e-file data and record
include reducing the costs associated with            an improved Web-based training session for
the inefficiencies of manually processing             employee use.
paper returns, while enhancing customer
                                           DEPARTMENT OF THE TREASURY
                                                WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                            May 19, 2011


 MEMORANDUM FOR COMMISSIONER, LARGE BUSINESS AND INTERNATIONAL
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Successfully Processing Large Corporate Tax
                             Returns Electronically Was a Major Accomplishment, but Eliminating
                             More Compliant Returns From the Audit Stream Is a Work in Progress
                             (Audit #201030004)

 This report presents the results of our review to evaluate the progress the Large Business and
 International Division is making to take advantage of the opportunities offered by electronic
 filing. The review was conducted in response to a suggestion by the Internal Revenue Service
 (IRS) Oversight Board and is part of our Fiscal Year 2011 Annual Audit Plan addressing the
 major management challenge of Tax Compliance Initiatives.
 Management’s complete response to the draft report is included as Appendix VI.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. Please contact me at (202) 622-6510 if you have questions or
 Margaret E. Begg, Assistant Inspector General for Audit (Compliance Enforcement Operations),
 at (202) 622-8510.
                          Successfully Processing Large Corporate Tax Returns
                    Electronically Was a Major Accomplishment, but Eliminating More
                     Compliant Returns From the Audit Stream Is a Work in Progress




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The E-File Program Is Providing Meaningful Results to Both
          Corporations and the Internal Revenue Service............................................ Page 4
          Despite the Overall Favorable Trend of Audit Productivity Indicators,
          the No-Change Percentage of Corporate Audits Is a Concern .................... Page 15
                    Recommendation 1:........................................................ Page 17

                    Recommendation 2:........................................................ Page 18


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 19
          Appendix II – Major Contributors to This Report ........................................ Page 21
          Appendix III – Report Distribution List ....................................................... Page 22
          Appendix IV – Treasury Inspector General for Tax Administration
          Survey for Large Business and International Division Territory and
          Group Managers............................................................................................ Page 23
          Appendix V – Glossary of Terms ................................................................. Page 35
          Appendix VI – Management’s Response to the Draft Report ...................... Page 37
              Successfully Processing Large Corporate Tax Returns
        Electronically Was a Major Accomplishment, but Eliminating More
         Compliant Returns From the Audit Stream Is a Work in Progress




                         Abbreviations

FY                 Fiscal Year
IC                 Industry Case
IRS                Internal Revenue Service
LB&I               Large Business and International
LIN                Large Business and International Imaging Network
PDF                Portable Document File
PY                 Processing Year
TIGTA              Treasury Inspector General for Tax Administration
XML                Extensible Markup Language
                      Successfully Processing Large Corporate Tax Returns
                Electronically Was a Major Accomplishment, but Eliminating More
                 Compliant Returns From the Audit Stream Is a Work in Progress




                                           Background

The Large Business and International (LB&I) Division (formally called the Large and Mid-Size
Business Division) serves the Nation’s largest corporations and developed the business case1 that
laid the foundation for the current electronic filing (Modernized e-File) system that large and
small corporations are using to electronically file (e-file) their tax returns and related forms.2 As
outlined in its business case, the LB&I Division anticipated that the move from manually
processing paper tax returns to a Modernized e-File system would improve its ability to support
the Internal Revenue Service’s (IRS) overall mission and strategic objectives and deliver other
key benefits. These other benefits generally centered on enhancing its continuing efforts to
better meet large corporate taxpayer expectations for efficient, modern service while increasing
the effectiveness of its audits and related compliance activities. Specifically, the benefits
included:
    •   Improving customer service to taxpayers by reducing and addressing taxpayer problems
        faster, standardizing acknowledgements, and providing better account maintenance to
        taxpayers.
    •   Achieving operational efficiencies by supporting the long-range modernization initiatives
        of e-file, reducing processing and storage costs, and improving the accuracy of processing
        tax forms.
    •   Facilitating the timely processing of tax forms and providing timely, consistent, and
        reliable information by capturing 100 percent of the information provided by taxpayers.
    •   Allowing the LB&I Division to identify potential abusive tax shelters through “top
        down” risk assessments immediately after return filing.
    •   Developing a Comprehensive Issue Management Strategy with the increased amount of
        data available to perform trend and issue analysis to make the audit process more focused
        on noncompliance.
    •   Improving employee satisfaction by providing revenue agents with better information and
        tools.




1
 See Appendix V for a Glossary of Terms.
2
 Final Streamlined Business Case Analysis, Large and Mid-Size Business Division, 1120/1120S Electronic Filing,
(dated December 14, 2001).
                                                                                                        Page 1
                       Successfully Processing Large Corporate Tax Returns
                 Electronically Was a Major Accomplishment, but Eliminating More
                  Compliant Returns From the Audit Stream Is a Work in Progress



In response to our recommendation in an earlier report,3 the IRS Commissioner agreed to consult
with the Office of Chief Counsel and the Department of the Treasury in evaluating the feasibility
and impact of legally mandating corporations to e-file. Subsequently, in January 2005, the
Department of the Treasury issued temporary regulations4 that required corporations with assets
of $50 million or more and that file 250 or more returns per year (including income tax, excise,
employment tax, and information returns) to e-file their corporate income tax return. This
mandate was expanded in November 20075 to include corporations with $10 million or more in
total assets that file 250 or more returns a year.
Implementing the Modernized e-File system to process corporate tax returns and requiring large
corporations to use the system was a formidable task and a major accomplishment. In the
months leading up to the effective date of the corporate e-file mandate, the IRS experienced
considerable opposition to the mandate and skepticism about the system’s ability to overcome
the technological challenges needed to effectively process large corporate income tax returns
electronically. However, LB&I Division officials reported working closely with tax
professionals, software developers, and corporate tax departments and, on May 31, 2006,
announced that it had successfully processed the Nation’s largest tax return. On paper, the IRS
estimated the return would have been some 24,000 pages long and, according to the
announcement, the corporation received acknowledgment about its filing in about an hour.6
Like the IRS, other tax administrators are similarly taking advantage of electronic processing
efficiencies. For example, we found that certain States have a range of e-filing options.
According to the Federation of Tax Administrators, States in general are currently showing a
faster electronic growth than the IRS, but this trend is slowing, which is to be expected given the
maturation of their electronic programs. California began accepting electronically filed business
returns in Calendar Year 2006 and does not have any mandates for e-filing, while New York
began in Calendar Year 2007 and implemented a mandate effective for business returns filed on
or after January 1, 2009. Both States report a general satisfaction with the level of participation
from taxpayers and believe that both the quantity and quality of data are at an appropriate level
of satisfaction.
We also looked at the e-filing of returns in the Canada Revenue Agency. In Calendar Year 2000,
the Canada Revenue Agency redesigned its tax system to electronically capture all taxpayer
information received. Specifically, information from paper returns is manually transcribed into
the electronic system. The Canada Revenue Agency representatives stated that processing costs
have decreased substantially as a result of e-filing and felt they had a significant savings due to
the estimated decline in data capture costs of more than 80 percent. Approximately 90 percent of
all corporate e-filed tax returns in the Canada Revenue Agency are filed through the Internet.

3
  New Regulations Are Needed to Take Full Advantage of the Opportunities Offered by Filing Large Corporate
Income Tax Returns Electronically (Report Number 2003-30-123, dated May 30, 2003).
4
  Treas. Reg. § 301.9177 (2005).
5
  Treas. Reg. § 301.9363 (2007).
6 IRS News Release IR-2006-84, IRS e-file Moves Forward: Successfully Executes Electronic Filing of Nation's

Largest Tax Return (May 31, 2006).                                                                           Page 2
                    Successfully Processing Large Corporate Tax Returns
              Electronically Was a Major Accomplishment, but Eliminating More
               Compliant Returns From the Audit Stream Is a Work in Progress



These corporate tax returns are processed and a notice of assessment is issued to the corporation
within 10 business days.
This review was performed at the LB&I Division Headquarters in Washington, D.C., during the
period November 2010 through January 2011. Except for not auditing IRS databases to validate
the accuracy and reliability of the information, this audit was conducted in accordance with
generally accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence obtained
provides a reasonable basis for our findings and conclusions based on our audit objective.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




                                                                                            Page 3
                     Successfully Processing Large Corporate Tax Returns
               Electronically Was a Major Accomplishment, but Eliminating More
                Compliant Returns From the Audit Stream Is a Work in Progress




                                  Results of Review

As envisioned in the LB&I Division’s business case, meaningful work process improvements
have been realized in the years after large corporations were required to e-file. Notably, the
accomplishments include reducing the costs associated with the inefficiencies of manually
processing paper returns, while enhancing customer service and increasing availability of
taxpayer information. Corporate taxpayers also report that e-filing has reduced the time and
expense (burden) they spend filing their tax returns and related forms.
Due to numerous process improvement projects to enhance its audit process for corporations, it
is very difficult, if not impossible, to isolate the impact e-filing is having on audit productivity.
However, when compared to the years before e-filing was mandated for large corporations,
LB&I Division statistics show that corporate audits are taking less time and generating more
additional recommended taxes.
Although e-filing was expected to provide the LB&I Division with the capability to eliminate
more compliant taxpayers from its audit stream, this key benefit has not been realized. In each
of the fiscal years since mandatory e-filing was introduced for large corporations, a higher
percentage of corporate returns audited in the Industry Case (IC) Program were closed with no
adjustment (no-change) when compared to any of the 3 fiscal years preceding its introduction.
Neither the Treasury Inspector General for Tax Administration nor officials in the
LB&I Division knows what the no-change rate should be in audits of large corporations.
Nevertheless, no-changing roughly one out of every four corporate returns audited in the last
several fiscal years indicates there may be room for improvement in how returns are identified
for audit and/or how examiners are conducting audits.

The E-File Program Is Providing Meaningful Results to Both
Corporations and the Internal Revenue Service
With the approval of the IRS Oversight Board, the IRS is working towards an overall 80 percent
e-file participation rate for all individual, major business, and exempt organization tax returns by
Calendar Year 2012. The LB&I Division supports the IRS’s long range goal through several
initiatives and, as indicated in Figure 1, the number of business returns processed electronically
for the LB&I Division has increased each year since Calendar Year 2005.




                                                                                                Page 4
                        Successfully Processing Large Corporate Tax Returns
                  Electronically Was a Major Accomplishment, but Eliminating More
                   Compliant Returns From the Audit Stream Is a Work in Progress



                       Figure 1: Paper Versus E-Filed Corporate Returns
                               Processing Years (PY) 2005–2009
                                                                   Number of Paper and E-Filed Returns
                        Forms                               2005         2006         2007         2008          2009
     U.S. Corporation Income Tax Return
                  (Form 1120)
                      Paper                           44,163       33,757             20,629        17,222       14,662
                     E-Filed                             217       12,764             26,949        32,143       33,965
                Form 1120 Totals                      44,380       46,521             47,578        49,365       48,627
         U.S. Income Tax Return for an
          S Corporation (Form 1120S)
                      Paper                           30,938       30,364             20,224        17,202       14,893
                     E-Filed                             984        5,524             19,032        24,097       26,231
               Form 1120S Totals                      31,922       35,888             39,256        41,299       41,124
          U.S. Income Tax Return of a
      Foreign Corporation (Form 1120F)
                      Paper                              991        1,109              1,067         1,440        1,447
                     E-Filed                               ---         ---                ---           74          440
               Form 1120F Totals                         991        1,109              1,067         1,514        1,887
                  Grand Totals
                      Paper                           76,092       65,230             41,920        35,864       31,002
                     E-Filed                           1,201       18,288             45,981        56,314       60,636
                  Grand Totals                        77,293       83,518             87,901        92,178       91,638
Source: IRS Processing Year 2009 Business Returns Transaction File.

Customer and employee satisfaction with the Modernized e-File system
During our review, we found that the LB&I Division recognizes the importance of providing a
high level of service to the taxpayers it serves. In a June 2009, Form 1120 e-file Customer
Satisfaction Study,6 it was determined that 92 percent of filers of corporate income tax returns
were very satisfied with their Form 1120 e-filing experience. This level of satisfaction was the
same for both those business taxpayers who were mandated to e-file and those that did so
voluntarily. Ninety-seven percent of users of Form 1120 e-file responded stating that they would
recommend e-filing to a friend, colleague, or relative, and this percentage was statistically the
same among both mandated and nonmandated users. The only exception noted by the
nonmandated users in determining their level of satisfaction with e-filing was in the use and
importance of acknowledgement of receipt and verification of corporate tax returns.
Nonmandated users considered the acknowledgment of receipt and verification of corporate tax


6
  The Form 1120 e-file Customer Satisfaction Study was conducted by an outside vendor. The contractor was
required to determine the business taxpayer’s satisfaction, attitudes, and concerns regarding e-filing, as well as the
concerns and barriers to e-filing for nonusers.
                                                                                                                Page 5
                      Successfully Processing Large Corporate Tax Returns
                Electronically Was a Major Accomplishment, but Eliminating More
                 Compliant Returns From the Audit Stream Is a Work in Progress



returns slightly more important than mandated users in determining their level of satisfaction
with e-filing.
When asked whether the e-file process could be improved, 22 percent of mandated users and
19 percent of nonmandated users responded stating that there was room for improvement. The
areas suggested for improvement related to expanding Form 1120 e-file, as well as providing
faster feedback and better, clearer, and easier to understand information about rejected returns.
Most e-filed returns were transmitted via a third-party software vendor for both mandated
(85 percent) and nonmandated (91 percent) users. Figure 2 shows some additional responses to
the Form 1120 e-file Customer Satisfaction Study and indicates that the dominant reason for the
overall satisfaction with e-file was the ease of use and convenience, which was about the same
for both mandated and nonmandated users.
           Figure 2: Listing of E-File Benefits Noted Among Corporate Filers
                                                                   Mandated     Nonmandated
 Number of Respondents                                               262            741
                                                                      %              %
 Being the most convenient way to file                                98             98
 Being paperless                                                     95             98
 Making tax filing easier                                            98             98
 Being easy to use, with little hassle                               95             98
 Being easy to learn                                                 96             97
 Compared to paper filing                                            97             98
 Providing fast acknowledgment of receipt                            96             98
 Being a more accurate way to file                                   96             96
 Being a private and secure way to file                               97             95
 Providing easy-to-use signature options                              95             95
 Being a time-saver for you                                          95              94
 Taking away the worry about the form                                95             94
 Reducing filing errors                                              94             94
 Allowing schedules & attachments                                    92             92
 Being inexpensive                                                   92             91
 Clear/understand process for correcting rejects                     81             79
 Easy to understand what caused reject                               79             77
 Paying the balance due electronically                               60             50
Source: Findings from the Form 1120 e-file Customer Satisfaction Study.

The Modernized e-File system also received high marks from LB&I Division managers. Results
from the survey we conducted of mid-level and frontline managers shows that a substantial
percentage (45 percent) of the respondents agreed or strongly agreed that the use of e-filed

                                                                                           Page 6
                     Successfully Processing Large Corporate Tax Returns
               Electronically Was a Major Accomplishment, but Eliminating More
                Compliant Returns From the Audit Stream Is a Work in Progress



returns is enhancing their ability to identify strategic compliance issues, as well as trends and
problems with auditing taxpayers. Additionally, 79 percent of respondents reported being
satisfied with the timeliness of the data received. The survey also indicated that respondents
were generally satisfied with the quality and quantity of e-filed data received. The complete
survey and results are included in Appendix IV.

Processing error rates for e-filed returns are low and data reliability, as well as
IRS communications and assistance, is high
Ninety-three percent of all e-filed returns are accepted on their first transmission. Business
taxpayers should receive a return acknowledgement within 24 hours of transmission; however,
current acknowledgments are sent out to the taxpayers in less than a minute. When a
transmission is rejected, processing stops and return validation cannot begin. Returns often have
multiple reject errors and the Modernized e-File system will only check up to 100 errors on the
return. If an e-filed return has more than 100 errors, then the system will stop processing the
return and reject the return with an explanation of the first 100 errors found. The taxpayer (or
vendor) transmitting the return receives one business rule acknowledgment file with up to100
business rules listed per transmission. The taxpayer then has 10 days to correct the error and
resubmit the return for processing.
For Fiscal Year (FY) 2009, the Electronic Tax Administration reported a 9 percent processing
error rate for e-filed returns, while a 21 percent processing error rate was reported for paper
returns. Some of the more common examples of errors for the categories are: (1) missing data
where there must be a value for all of the items listed on the forms; (2) a missing supporting
document that must be present for the return to be accepted for processing; (3) data validation
error (for example, the return type indicated in the return header must match the return type
established with the IRS for that Employer Identification Number); and (4) an Extensible
Markup Language (XML) Schema error, which makes up the greatest number of errors (the
structure of an XML document has failed schema or structure validation).
The Modernized e-File system also has a built-in system of integrity. For example, the
Modernized e-File system has business rules that reject information and stop a return from
processing, and other business rules that reject information (for example, a specific deduction)
but allow the return to proceed. However, the taxpayer is always provided with the errors that
need to be addressed. To reduce these types of errors in future transmissions of tax returns, the
LB&I Division notifies taxpayers of the most common reject codes among business taxpayers
through informational briefings at external conferences, notices posted on the IRS’s web site and
the American Institute of Certified Public Accountants’ web site, and newsletter
communications. Also, the LB&I Division updates the business rules as needed when schema
updates are made.
In addition to providing business taxpayers the reasons for the rejection, the IRS also provides
the e-help desk, which assists in providing access to the taxpayer’s account through the Return

                                                                                              Page 7
                     Successfully Processing Large Corporate Tax Returns
               Electronically Was a Major Accomplishment, but Eliminating More
                Compliant Returns From the Audit Stream Is a Work in Progress



Request and Display System. This system allows users to view any changes made to the
taxpayer’s return, as well as assisting with error correction and any other Modernized e-File
system needs.
As mentioned, the largest number of reject errors fall into the XML Schema category, which
covers every field on each form available in XML format. The LB&I Division strives to test the
most commonly used fields on each return type; however, it is not conceivable to test every
condition or tax situation that could occur on every return. The purpose of XML schema
validation reject errors is to prevent erroneous or invalid data from acceptance into the
Modernized e-File system. It is more effective for the customer and the IRS to reject these
returns up front, which prevents further problems during downstream processing.
Since the original LB&I Division survey of Form 1120 users was published in June 2009, the
LB&I Division E-File Project Office has presented the top 10 error rejects at software vendor
conferences and the American Institute of Certified Public Accountants meetings in
December 2009 and February 2010. In addition, the LB&I Division E-File Project Office
identified the need to test additional form fields during the software assurance testing. For
example, new forms added to the 1120 Form family were included in the current processing year
testing scenarios. The E-File Project Office secured the services of subject matter experts to
improve the testing scenarios for each form family. The LB&I Division E-File Project Office
also hosts individual calls with vendors as necessary to address specific software concerns or
issues.

E-filing enables tax returns to be processed faster
As Figure 3 shows, more steps are involved in processing a paper-filed return before it is posted
to the IRS Master File and is available for audit screening than are involved in processing an
e-filed return. Error rates are also considerably higher for paper tax returns. In contrast, e-filed
tax returns are sent through a number of validations, which check for several hundred possible
errors before the IRS accepts the tax return.




                                                                                              Page 8
                      Successfully Processing Large Corporate Tax Returns
                Electronically Was a Major Accomplishment, but Eliminating More
                 Compliant Returns From the Audit Stream Is a Work in Progress



         Figure 3: Comparison of Paper Versus E-File Tax Return Processing

    Steps                             Paper                                              E-Filed
                 Returns in sealed envelopes are delivered,           E-filing saves the costs of manually handling
                 opened, counted, and batched by return type.         and sorting tax returns delivered by mail. It
   Return
                 Returns with payments are separated from those       also has an integrated payment option so
   Receipt       without payments, and the payments are               electronic funds can be withdrawn from or
                 deposited.                                           deposited to a bank.

   Review        Manually reviewed to ensure all forms are            E-filing saves the costs of manually reviewing
                 attached, completed, and signed. Returns are         tax returns and eliminates the need to
    and          coded and edited so they can be manually             transcribe return data for computer
   Coding        transcribed into IRS computers.                      processing.

                 A variety of checks are performed to determine if    Compared to paper filing, e-filing is far less
                 the return data are complete, were transcribed       prone to transaction, math, and other errors
 Computer        accurately, and are mathematically accurate.         because many errors are identified and
 Processing      Returns that fail these checks are transferred to    corrected before IRS accepts the returns for
                 an error register, where IRS personnel attempt to    processing.
                 correct the errors.

                 The document locator number is a control             E-filing allows control numbers to be
  Return   number assigned to every return and must be                assigned automatically, which eliminates the
 Numbering manually stamped on every return.                          need to manually stamp a control number on
                                                                      each return.

                 Computer tapes with perfected return data are        Most e-filed returns post directly to the
   Master        sent to the IRS’s Martinsburg Computing Center       Master File within 1 week, if not sooner, after
    File         in West Virginia where the data are uploaded to      the returns are filed.
   Posting       the Master File within about 4 weeks after the
                 returns are filed.

                 Returns are mailed from IRS files to examiners,      E-filing facilitates online audit screening and
                 where they are manually screened to determine        enables returns warranting an audit to be
    Audit
                 which ones warrant an audit and which ones do        delivered electronically to examiners.
  Screening      not. Returns that do not warrant an audit are
                 returned to IRS files.

                 Returns are stored at the Federal Record Center      E-filing saves the costs of storing paper
   Storage       for 75 years, requiring a large amount of space to   returns in the Federal Record Center. Returns
     and         house returns prior to being allowed to legally      are maintained on an electronic storage
  Retention      dispose of the paper returns.                        media, which reduces the amount of storage
                                                                      space needed.
Source: IRS LB&I Division E-File Project Office.

Since LB&I Division officials had not performed any analyses to determine if e-filed returns are
processed faster than paper returns, we worked with officials in analyzing a small sample of

                                                                                                              Page 9
                       Successfully Processing Large Corporate Tax Returns
                 Electronically Was a Major Accomplishment, but Eliminating More
                  Compliant Returns From the Audit Stream Is a Work in Progress



paper returns (15 returns for each year from PYs 2007 through 2009) and the population of
e-filed returns. Our results show that e-filed returns are processed7 and ready for audit
classification in a much shorter time frame than paper returns. For instance, we found that
13 percent of PY 2009 paper returns were processed and available for audit classification within
a week. Comparatively, our results indicate that 72 percent of the e-filed returns for PY 2009
were processed and available for audit classification within a week, as shown in Figure 4.
            Figure 4: Comparison of Paper Versus E-Filed Processing Times
     Processing
                          2007            2007            2008           2008           2009           2009
        Time
                          Paper          E-Filed          Paper         E-Filed         Paper         E-Filed
     (in weeks)
                              % Processed                    % Processed                    % Processed
          1                  0          66                   0         49                 13          72
          2                  7          18                  13         22                 27          11
          3                  7           5                  13         10                 33           5
          4                 20           2                  27          7                  7           3
          5                  7          1                    0          3                  7          2
          6                  7          1                    0          2                 0           1
          7                 20          1                    7          2                 0           1
          8                 13          1                    7          1                 7           1
          9                 20          1                    0          1                 7           1
         10                  0          1                    0          1                 0           1
         11                 0           1                    7          1                 0           1
         12                 0           1                    0          0                 0           1
         13                 0           1                    7          0                 0           1
         14                 0           0                    0          0                 0           0
         15                 0           0                   0           0                 0           0
    16 and longer           0           1                   21          1                 0           0
Source: IRS LB&I Division Research and Workload Identification function.

However, according to the LB&I Division, the reduction in processing time cannot be solely
attributed to the fact that more returns are e-filed. Instead, the LB&I Division stated that the
implementation of the LB&I Imaging Network (LIN) during Tax Year 2004 is the major reason
for the decrease in processing time. The LIN is the primary method of LB&I Division audit
workload delivery and provides an electronic format of corporate and partnership returns to the
field. This system provides the return image to users for viewing and downloading through a
secure intranet-based system.

7
  The amount of time it takes from the date the return is received to when a return has completed processing, i.e.,
received date to Master File posting date.
                                                                                                             Page 10
                     Successfully Processing Large Corporate Tax Returns
               Electronically Was a Major Accomplishment, but Eliminating More
                Compliant Returns From the Audit Stream Is a Work in Progress



The LIN system existed prior to e-filing and consisted of scanning paper returns and delivering
an electronic copy of the return to the field in a totally paperless process. In 2004, when the LIN
was implemented, only a portion of the LB&I Division population of Form 1120 and
Form 1120S returns were scanned (a total volume of about 25,000 returns).
In January 2005, the Department of the Treasury issued temporary regulations that required
corporations with assets of $50 million or more and that file 250 or more returns per year
(including income tax, excise, employment tax, and information returns) to e-file their corporate
income tax return. This requirement presented new challenges to the LIN team, both in return
processing and return delivery. There was no system in place to create a transportable e-file
return for delivery to the field. When returns began to arrive electronically, a second process
was implemented to create a facsimile return as a Portable Document File (PDF). The IRS’s
Statistics of Income Division offered to use the e-file data to create a PDF of the returns and
make them available for LIN delivery.
The Modernized e-File system had limitations that resulted in the need for large corporate
taxpayers to file part of their returns electronically and part as paper documents. This was
known as the hybrid process. During this time, the IRS’s Statistics of Income Division was able
to piece the e-filed and paper returns together to create a complete return for LIN delivery to the
field.
In 2007, the LIN began delivering the XML data file for e-filed returns in addition to the PDF.
The XML data file can be used in several applications developed by LB&I Division Computer
Audit Specialists to provide the e-file data to the field for use in examinations of tax returns. In
PY 2009, about 45 percent of LB&I Division returns were e-filed, and about 1.2 million returns
consisting of 107 million pages have been scanned for the LIN.
The front end cycle time, defined as the time between a return posting to its selection for
examination (Status 08 in the IRS’s Audit Information Management System) has been
significantly reduced over the past several years. Specifically, as shown in Figure 5, the
processing time for both electronically and paper-filed returns has been reduced from 410 days in
September 2002 to 24 days in December 2009, a decrease of nearly 95 percent.




                                                                                             Page 11
                        Successfully Processing Large Corporate Tax Returns
                  Electronically Was a Major Accomplishment, but Eliminating More
                   Compliant Returns From the Audit Stream Is a Work in Progress



    Figure 5: Average Days Between Return Posting and Selection for Examination
                                    September                                  December
    LB&I Division Form 1120
                                       2002         2003      2004      2005      2006       2007     2008      2009
    Returns Only
    Paper & e-filed returns8            410          173        70       80         79        48        21        24
    Paper returns only9                                                            42         41        26        28
    E-filed returns only10                                                         180        55        19        23
Source: IRS LB&I Division E-File Project Office.

The LB&I Division is realizing cost savings from e-filing
During our review, we found that the LB&I Division had not completed any studies to determine
whether the e-filing of returns has resulted in cost savings. However, based on data we received
from the IRS’s Wage and Investment Division Submission Processing function, we calculated
the LB&I Division’s storage costs from FY 2006 to FY 2009, as shown in Figure 6. Our
calculations indicate storage costs have decreased 46 percent since FY 2006, which is the first
year business taxpayers were mandated to e-file. When you consider that some business tax
returns are subject to a 75 year retention rate, the decrease in the estimated storage cost savings is
even more substantial.
                                Figure 6: Forms 1120 Storage Costs11
                                                                                                         Storage
                                                                           Increase/Decrease
                                                           Yearly                                      Costs Over a
                                                                            in Yearly Storage
    Fiscal     Volume in            Monthly                Storage                                       75 Year
                                                                                  Costs
    Year       Cubic Feet         Storage Costs             Costs                                        Period
     2006              70,739              $14,855           $178,262                -                   $13,369,671
     2007              64,561              $13,559           $162,694           9% Decrease              $12,202,029
     2008              66,546              $13,975           $167,696           3% Increase              $12,577,194
     2009              37,932               $7,966            $95,589          43% Decrease               $7,169,148
    Total            239,778               $50,355          $604,241           46% Decrease12           $45,318,042
Source: IRS Wage and Investment Division, Submission Processing function, Post Processing unit.




8
  For PY 2006, the first year of the LB&I Division e-file mandate, the overall average days is a weighted average of
paper-filed and e-filed returns as applicable. Prior to PY 2006, e-filing was not in effect and only paper returns were
received and accounted for in this calculation. The remaining columns are left blank prior to PY 2006 because there
is no information applicable.
9
  Paper-filed returns only – Average days from return posting to Audit Information Management System Status 08.
10
   E-filed returns only – Average days from return posting to Audit Information Management System Status 08.
11
   All costs have been rounded to the nearest dollar.
12
   The 46 percent decrease under “Total” represents the time period FYs 2006 through 2009.
                                                                                                             Page 12
                        Successfully Processing Large Corporate Tax Returns
                  Electronically Was a Major Accomplishment, but Eliminating More
                   Compliant Returns From the Audit Stream Is a Work in Progress



Additionally, we calculated the processing costs for paper and e-filed Forms 1120 based on data
we received from the IRS Business Returns Transaction File. Our calculations estimated that
e-filing has reduced Form 1120 processing costs by $279,478 (see Figure 7). We based our
calculations on the estimated costs for processing of paper and e-filed returns included in the
FY 2008 Cost Estimate Guide.13 Additionally, we included costs related to overhead and
employee benefits. We determined the estimated cost savings by taking the difference between
(1) the estimated cost if the e-filed returns would have been filed as paper returns and (2) the
estimated cost for the e-filed returns. We did not include any costs associated with nonpipeline
processing, which would have increased the cost savings from e-filing.
                              Figure 7: Form 1120 Processing Costs

            Forms 1120               PY 2005        PY 2006         PY 2007         PY 2008          PY 2009
            Paper Cost                    $585        $34,400         $72,630         $86,629         $91,539
            E-File Cost                     $13            $759         $1,602         $1,911          $2,020
        Savings by Year                   $572        $33,641         $71,028         $84,718         $89,519
 Total Estimated Savings
 From 2005 Through 2009                                                                              $279,478
Source: Our analyses of the FY 2008 Cost Estimate Guide and the Business Returns Transaction File.

Overall, productivity indicators are trending favorably for audits of corporate
returns
To determine whether large corporations comply with tax laws, the LB&I Division audits their
tax returns under two programs. In general, the largest and most complex corporate returns are
continuously audited by a team of examiners under the Coordinated Industry Case Program,
while the vast majority of other large corporations may be selected for audit under the
IC Program. Unlike the team approach used to audit returns in the Coordinated Industry Case
Program, corporate returns in the IC Program are typically assigned to one examiner, although
other specialists may be called upon to provide assistance in auditing some complex tax issues,
such as those involving international taxation.
One measure of audit productivity in both Programs is the amount of additional taxes
recommended for each return audited and another is the amount of additional taxes
recommended for each hour examiners apply to an audit. Overall, we found that the amount of
additional taxes recommended on both a return and hourly basis in both Programs is trending
favorably since mandatory e-filing was introduced for large corporations in FY 2005. As
Figure 8 shows, the recommended additional taxes on a return basis in the IC Program increased



13
     Document 6746 (Catalog Number 62707C, Rev. 7-2009).
                                                                                                      Page 13
                           Successfully Processing Large Corporate Tax Returns
                     Electronically Was a Major Accomplishment, but Eliminating More
                      Compliant Returns From the Audit Stream Is a Work in Progress



almost 113 percent from a low of $254,638 in FY 2002 to $542,006 in FY 2010, which was the
latest full year of audit productivity data available during our review.
                 Figure 8: Coordinated Industry Case and Industry Case
            Recommended Additional Taxes, No-Change Rates, and Cycle Times
                   From Corporate Audits for FYs 2002 Through 2010

                       Coordinated Industry Cases                                       Industry Cases

                       Audit
            Total                 Dollars      Dollars      No-        Total    Audit     Dollars    Dollars      No-
                       Cycle
            Cycle                   per          per       Change      Cycle    Cycle      per         per       Change
                       Time
            Time14       15       Return        Hour        Rate       Time     Time      Return      Hour        Rate
     FY
     2002     64        38       $4,978,642     $3,282        7%         38       18     $254,638     $1,230       22% 
     2003     62        38       $5,212,924     $3,461        7%         42       19     $246,107     $1,043       21% 
     2004     62        36       $5,152,384     $4,202        8%         39       16     $401,840     $1,773       22% 

     2005     62        37       $9,488,680     $7,277        6%         40       16     $507,131     $2,306       24% 

     2006     63        39      $10,156,293     $6,810        4%         33       14     $711,709     $3,422       30% 

     2007     61        38      $13,144,049     $8,533        7%         28       13     $511,812     $2,199       28% 

     2008     49        32      $14,196,631     $9,658        5%         29       14     $552,755     $2,185       27% 

     2009     47        30      $18,055,362     $11,731       6%         29       14     $659,599     $2,594       25% 

     2010     44        28      $16,137,186     $10,016       8%         28       13     $542,006     $2,398       28% 

Source: Our analysis of FYs 2002 through 2010 audited corporate returns as reflected in the Audit Information
Management System.

Figure 8 also shows corporate audits in the Coordinated Industry Case Program result in
substantially more additional recommended taxes per return than those conducted in the IC
Program. There are several factors that can contribute to this difference. For example, the
corporations in the Coordinated Industry Case Program are generally much larger and have
higher taxable incomes than those in the IC Program. Consequently, a tax increase to a
corporation with high taxable income will result in higher additional recommended taxes than
the same change would for a corporation with less taxable income. While the favorable trend in
the amount of recommended additional taxes is noteworthy, the number of corporate audits that
are closed without a tax change (no-change) in the IC Program is an area that could be improved.



14
     The total cycle time is calculated from the date the return is filed to the date the audit is completed.
15
     The audit cycle time is calculated from the date the return is selected for audit to the date the audit is completed.
                                                                                                                  Page 14
                      Successfully Processing Large Corporate Tax Returns
                Electronically Was a Major Accomplishment, but Eliminating More
                 Compliant Returns From the Audit Stream Is a Work in Progress



Despite the Overall Favorable Trend of Audit Productivity Indicators,
the No-Change Percentage of Corporate Audits Is a Concern
Because e-filing gives the IRS all of the return information in its computers, compared to the
151 items it previously transcribed from paper returns, the Modernized e-File system was
expected to provide the LB&I Division with the capability to eliminate more compliant
taxpayers from its audit stream. However, statistics from closed audits of corporate returns in
the IC Program suggest the additional return information has not resulted in realizing this key
benefit.
In each of the FYs (2005 through 2010) since mandatory e-filing was introduced for large
corporations, a higher percentage of corporate returns audited in the IC Program were closed as a
no-change when compared to any of the 3 fiscal years preceding its introduction. As the IRS
reported to Congress in 2003,16 a high no-change rate means a significant amount of resources
are being devoted to unproductive audits and compliant corporations are being unnecessarily
burdened by audits. Neither the Treasury Inspector General for Tax Administration nor
LB&I Division officials know what the no-change rate should be in audits of large corporations.
Nevertheless, no-changing roughly one out of every four corporate returns audited in FYs 2005
through 2010, as shown in Figure 8, indicates there is room for enhancing the use of e-file data in
deciding which returns to audit and/or how audits are conducted.

Enhancing the Use of E-File Data in Deciding Which Returns to Audit
The LB& I Division should be commended for consistently investing considerable efforts in
process improvement projects to enhance how it identifies and selects corporate returns for audit,
as well as how returns are audited. For example, LB&I Division officials coordinated with IRS
researchers about 10 years ago in developing and testing the Discriminate Analysis System,
which is currently in use helping select IC corporate returns for audit. The Discriminate
Analysis System uses tax return data, mathematical models, and statistical formulas to
automatically assign a compliance risk score to IC corporate returns. In general, the higher the
score, the more compliance risk the return poses and the greater probability a tax change will
result if the return is audited.
Currently, the LB&I Division is involved in numerous projects that are relying on e-file data and
the efficiencies it provides to make work process improvements. One such project is called the
Compliance Management Operations pilot. The Compliance Management Operations pilot is a
multiyear project that was initiated in February 2010 to test if a more comprehensive approach



16
  Report to Congress: IRS Tax Compliance Activities, Department of the Treasury and Internal Revenue Service,
July 15, 2003.


                                                                                                      Page 15
                     Successfully Processing Large Corporate Tax Returns
               Electronically Was a Major Accomplishment, but Eliminating More
                Compliant Returns From the Audit Stream Is a Work in Progress



for identifying and selecting returns for audit can outperform the Discriminate Analysis System
and other existing techniques.
Although we did not conduct an in-depth review of the Compliance Management Operations
pilot, we did learn through discussions with LB&I Division officials that a detailed evaluation
plan for the pilot has yet to be completed and documented even though the pilot began over a
year ago. According to published Government Accountability Office guidance,17 a sound
evaluation plan needs to be developed early and include such details as: (1) clear and
measureable objectives, (2) standards for determining the pilot’s performance and measuring its
success against stated objectives, and (3) details about the type and amount of data needed to
evaluate the pilot as well as how the data will be collected.
The LB&I Division has two stated goals for the Compliance Management Operations pilot,
which is to test whether the approach can drive taxpayer compliance as early and efficiently as
possible and by getting productive returns into the audit stream that would not have otherwise
been selected. It has also outlined key objectives in briefing documents by indicating that the
Compliance Management Operations approach is designed to improve the LB&I Division’s
workload selection capabilities, increase compliance coverage of taxpayers, shorten the length of
audits, promote voluntary compliance, and identify emerging compliance risks sooner.
However, not all of the objectives are clear. For example, “increase compliance coverage of
taxpayers” does not explain the type of taxpayers that will be covered or what is meant by
compliance coverage. The LB&I Division covers several segments of the taxpayer population.
These segments include high-wealth individuals, multinational corporations and large
partnerships, and subchapter S corporations. Moreover, compliance coverage can include a
variety of activities, such as conducting correspondence, office, and field audits; reaching out to
taxpayer groups for educational purposes; securing agreements with State or local business
licensing authorities to address certain tax issues; and sending notices to taxpayers that
encourage self-correction of potential tax return errors. In addition to better defining objectives,
not all of the objectives can be easily measured. For instance, the statement “improve LB&I
Division’s workload selection capabilities” does not indicate how much of an improvement in
workload selection capabilities is expected. The statement also does not specify what would
indicate success, such as identifying a certain anticipated percentage drop in no-change audits.
Besides clear and measurable objectives, sound evaluation plans include details about the type
and amount of data that will be needed to evaluate the pilot’s performance and specify the
criteria or standards for objectively measuring performance. Assessing data needs early, as well
as how the data will be gathered, helps ensure they will be available and collected once testing


17
  Government Accountability Office published guidance includes, among others, the Business Process
Reengineering Assessment Guide (GAO/AIMD-10.1.15, dated May 1997) and Tax Administration: Planning for
IRS’s Enforcement Process Changes Included Many Key Steps but Can Be Improved (GAO-04-287, dated
January 2004).
                                                                                                 Page 16
                         Successfully Processing Large Corporate Tax Returns
                   Electronically Was a Major Accomplishment, but Eliminating More
                    Compliant Returns From the Audit Stream Is a Work in Progress



begins. Measuring performance objectively is important for making effective business decisions
by determining whether desired results are being obtained and whether further improvements
may be needed. Such determinations can also increase the likelihood the project will
successfully target and address the intended problem area while enhancing the credibility of the
results and helping avoid any perception bias in the outcomes.

Enhancing the use of e-file data in conducting audits
Establishing a framework for identifying, developing, and sharing best practices is widely
recognized both in the government and private industry as a cost-effective and efficient way to
draw on expertise and experience of others in using new technologies and techniques to improve
performance. It is also in line with the Standards for Internal Control in the Federal
Government,18 which indicates such a process can be a powerful training tool for ensuring all
personnel possess and maintain a level of competence that allows them to accomplish their
assigned duties.
Although we did not evaluate case files to assess whether some examiners, or specific groups of
examiners, may be struggling with e-file data issues in isolation, we did review examiner training
records and found that a limited number of examiners (195 of the approximate 7,000 LB&I
Division examiners) participated in a July 2010 web-based training session on accessing and
using available tools for analyzing e-file data. While the session received favorable feedback
from participants, it is no longer available online to examiners, nor have similar training sessions
been provided subsequently.
In addition, our survey of LB&I Division Territory and Group Managers found evidence
indicating that there is room for improving how examiners work with e-file data. Approximately
66 percent of the respondents disagreed or expressed no opinion that they were satisfied with the
training they have been provided in accessing and using e-filed returns for audits. Several
respondents commented that they did not fully understand how to use the systems available and
to manipulate the data in order to take full advantage of the available information. Respondents
also believed that some of their coworkers had more knowledge on how to manipulate the data
and wanted to obtain the same level of competency in working with the data.

Recommendations
The Commissioner, LB&I Division, should:
Recommendation 1: Ensure the Compliance Management Operations pilot project team and
other teams involved in process improvement projects develop, document, and carry out
evaluation plans to assess project results. The plans should include such key evaluation items as
clear and measurable objectives, criteria for determining the project performance and measuring

18
     Standards for Internal Control in the Federal Government, (GAO/AIMD-00.21.1.3, dated November 1999).
                                                                                                      Page 17
                    Successfully Processing Large Corporate Tax Returns
              Electronically Was a Major Accomplishment, but Eliminating More
               Compliant Returns From the Audit Stream Is a Work in Progress



its success against stated objectives, and details about the type and amount of data needed to
evaluate the project, as well as how the data will be collected.
       Management’s Response: IRS management agreed with this recommendation. The
       Commissioner, LB&I Division, will ensure that the Compliance Management Operations
       pilot project team will develop, document, and carry out evaluation plans to assess
       project results. The assessment for the first year of the Compliance Management
       Operations pilot has been completed and the report is being finalized. After reviewing
       the report, the IRS will refine performance measurements for the Compliance
       Management Operations. A project management function with responsibility for
       overseeing, evaluating, and assessing how the Compliance Management Operations
       process is working on an ongoing basis is being implemented. A similar approach will be
       deployed to other workload selection processes in a manner appropriate to the individual
       project.
Recommendation 2: Assess the relative effectiveness of the LB&I Division’s current
methods of promoting and sharing best practices for working with e-file data by using existing
tools, such as including appropriate questions in periodic employee surveys. This assessment
should include the observations made in this report and be subsequently used to adjust current
methods, as needed, to better meet examiner needs.
       Management’s Response: IRS management agreed with this recommendation. The
       Commissioner, LB&I Division, will assess the relative effectiveness of the LB&I
       Division’s current methods of promoting and sharing best practices for working with
       e-file data. In addition, the LB&I Division will record an improved Web-based
       CENTRA training session for employee use. The LB&I Division is also working on
       enhancements to improve the field’s ability to use e-file data by making the returns easier
       to navigate, search, analyze, etc. The LB&I Division will obtain feedback from
       employees periodically via surveys and other means to identify additional ways to make
       working with electronic data easier and more effective.




                                                                                           Page 18
                         Successfully Processing Large Corporate Tax Returns
                   Electronically Was a Major Accomplishment, but Eliminating More
                    Compliant Returns From the Audit Stream Is a Work in Progress



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to evaluate the progress the LB&I Division is making to take
advantage of the opportunities offered by e-filing. To accomplish our objective, we:
I.         Assessed whether the Modernized e-File system achieved (or planned actions exist to
           realize) benefits such as improved cost savings; reduction in taxpayer burden; increased
           employee satisfaction; and improved identification of issues, trends, and problems with
           noncompliant taxpayers by:
           A. Analyzing and comparing the processing procedures for U.S. Corporation Income
              Tax Returns (Form 1120) for paper versus e-filed tax returns.
           B. Obtaining and analyzing the Form 1120 e-file Customer Satisfaction Study
              (June 2009) from the IRS LB&I Division E-File Project Office.
           C. Obtaining and analyzing the PYs 2005 through 2009 Business Returns Transaction
              File.1
           D. Interviewing IRS LB&I Division personnel to obtain error processing rates and types
              of errors made for PY 2009 e-filed tax returns.
           E. Analyzing and comparing the time periods for processing Forms 1120 paper versus
              e-filed tax returns for Tax Years 2007 through 2009.
           F. Obtaining (from the IRS LB&I Division E-File Project Office) the September 2002
              through December 2009 average days between return posting and selection for
              examination of Forms 1120 and compared the difference between paper and e-filed
              tax returns.
           G. Analyzing the results of a judgmental sample selected by the LB&I Division’s
              Research and Workload Identification function to compare the processing times of
              paper and e-filed tax returns.
           H. Obtaining and comparing storage cost data for both paper and e-filed Forms 1120 for
              the time period FYs 2006 through 2009 from the Wage and Investment Division
              Submission Processing function to determine which process provided the most cost
              savings.



1
    See Appendix V for a Glossary of Terms.
                                                                                             Page 19
                     Successfully Processing Large Corporate Tax Returns
               Electronically Was a Major Accomplishment, but Eliminating More
                Compliant Returns From the Audit Stream Is a Work in Progress



       I. Analyzing data from the Automated Information Management System to determine
          the impact e-filed data has had on the productivity of large corporate examinations.
II.    Conducted an onsite visitation to the King of Prussia, Pennsylvania, office to interview
       and observe how e-filed returns were being utilized during the examination process.
III.   Obtained 289 surveys from LB&I Division Territory and Group Managers to determine
       how the Modernized e-File system has improved work processes and satisfaction with the
       existing system, and suggestions for improvement.
IV.    Identified the best practices, policies, and procedures being used by the States and other
       governments in the processing of e-filed business tax returns by:
       A. Contacting the Federation of Tax Administrators to obtain information on States’
          usage of e-filing.
       B. Judgmentally selecting two States (California and New York) and conducting
          interviews with and obtaining appropriate support information from those State tax
          officials using a standardized questionnaire.
       C. Conducting interviews with Canadian tax officials (Canada Revenue Agency) about
          the benefits they have experienced with e-filing.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: 1) the controls in place to ensure the IRS’s
ability to identify compliant taxpayers and eliminate them from the audit stream and 2) the
controls in place to ensure better identification of issues, trends, and problems of noncompliant
taxpayers. We evaluated these controls by reviewing source materials and interviewing
management.




                                                                                            Page 20
                   Successfully Processing Large Corporate Tax Returns
             Electronically Was a Major Accomplishment, but Eliminating More
              Compliant Returns From the Audit Stream Is a Work in Progress



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Frank Dunleavy, Director
Michelle Philpott, Audit Manager
Lisa Stoy, Audit Manager
Carole Connolly, Acting Audit Manager
Donna Saranchak, Lead Auditor
Todd Anderson, Senior Auditor
Earl Burney, Senior Auditor




                                                                                      Page 21
                    Successfully Processing Large Corporate Tax Returns
              Electronically Was a Major Accomplishment, but Eliminating More
               Compliant Returns From the Audit Stream Is a Work in Progress



                                                                               Appendix III

                          Report Distribution List


Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large Business and International Division SE:LB
Director, Business Systems Planning, Large Business and International Division SE:LB:BSP
Director, Planning, Analysis, Inventory and Research, Large Business and International Division
SE:LB:PAIR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Large Business and International Division SE:LB




                                                                                       Page 22
                    Successfully Processing Large Corporate Tax Returns
              Electronically Was a Major Accomplishment, but Eliminating More
               Compliant Returns From the Audit Stream Is a Work in Progress



                                                                                  Appendix IV

 Treasury Inspector General for Tax Administration
Survey for Large Business and International Division
           Territory and Group Managers

The following questions were included in an online survey conducted by the Treasury Inspector
General for Tax Administration (TIGTA). Notification about the online survey was emailed to
712 managers listed under the Discovery Directory under the LB&I Division management
category. The email notification was sent on January 29, 2010, and a reminder was sent on
February 8, 2010. Online surveys were completed by February 12, 2010. A total of
289 LB&I Division managers participated in the survey. The percentages reflected in the survey
responses may not always equal 100 percent due to rounding.

Email Notification
The TIGTA, Office of Audit, is conducting an evaluation of the LB&I Division’s efforts to take
advantage of the opportunities offered by the increase in e-filing of business returns. As part of
the evaluation, the TIGTA is conducting a survey of all Territory Managers and Group Managers
in the LB&I Division.
TIGTA and LB&I Division executives appreciate your participation in the survey. As
individuals who work directly with e-filed business returns, we value your opinions on the
current e-filing process. Your input will help to identify areas in which there may be barriers
hampering your ability to take full advantage of using e-file returns in the day-to-day,
case-related activities of your examinations.
The TIGTA estimates that the survey will take about 20 minutes to complete. The survey is
confidential. Your responses will be combined with those of other respondents and will be
reported only in summary form. The TIGTA will not identify the specific respondents who
participated in the survey either in its report or to other IRS officials.


Thank you!




                                                                                           Page 23
                        Successfully Processing Large Corporate Tax Returns
                  Electronically Was a Major Accomplishment, but Eliminating More
                   Compliant Returns From the Audit Stream Is a Work in Progress



Survey Questions

The TIGTA appreciates your participation in this survey because it will help identify current
practices and procedures in the e-filing community.
Your responses will be combined with those of other respondents and will be reported only in
summary form. The TIGTA will not identify specific respondents who participated in the survey
in our report or to other IRS officials.
Thank you for your participation!

1.        Check the box that best describes your position.
             29    Territory Manager         (10.03%)
           189     Team Manager              (65.40%)
             21    IE Manager1               ( 7.27%)
              2    Economist Manager         ( 0.69%)
              9    CAS Manager2              ( 3.11%)
             12    Engineer Manager          ( 4.15%)
             11    Financial Products Manager ( 3.81%)
             16    Other                     ( 5.54%)

2.        How long have you been in your current position?
             68    Zero to one year          (23.53%)
           104     One year to five years    (35.99%)
           117     Over five years           (40.48%)




1
    IE = International Examiner.
2
    CAS = Computer Audit Specialist.
                                                                                          Page 24
                  Successfully Processing Large Corporate Tax Returns
            Electronically Was a Major Accomplishment, but Eliminating More
             Compliant Returns From the Audit Stream Is a Work in Progress



3.   I find that the use of e-filed business returns is enhancing our ability to identify
     strategic compliance issues, trends, and problems without examining taxpayers.
       35   Strongly Agree                (12.11%)
       96   Agree                         (33.22%)
       84   Neither Agree nor Disagree (29.07%)
       47   Disagree                      (16.26%)
       14   Strongly Disagree             ( 4.84%)
       11   Not Applicable                ( 3.81%)
        2   No response provided          ( 0.69%)

4.   I believe the use of e-filed business returns has reduced the amount of time between
     when a return is filed and the examination of a business taxpayer is complete.
       81   Strongly Agree                (28.03%)
     125    Agree                         (43.25%)
       41   Neither Agree nor Disagree (14.19%)
       21   Disagree                      ( 7.27%)
        9   Strongly Disagree             ( 3.11%)
       10   Not Applicable                ( 3.46%)
        2   No response provided          ( 0.69%)

5.   I find the use of e-filed business returns is making the audit process more focused on
     noncompliance by providing increased data for trend issue analysis.
       30   Strongly Agree                (10.38%)
     102    Agree                         (35.29%)
       80   Neither Agree nor Disagree (27.68%)
       54   Disagree                      (18.69%)
       12   Strongly Disagree             ( 4.15%)
        9   Not Applicable                ( 3.11%)
        2   No response provided          ( 0.69%)


                                                                                      Page 25
                  Successfully Processing Large Corporate Tax Returns
            Electronically Was a Major Accomplishment, but Eliminating More
             Compliant Returns From the Audit Stream Is a Work in Progress



6.   I am satisfied with the quality of data provided by e-filed business returns, including
     the data delivered via the LIN.
       23   Strongly Agree               ( 7.96%)
     126    Agree                        (43.60%)
       46   Neither Agree nor Disagree (15.92%)
       54   Disagree                     (18.69%)
       29   Strongly Disagree            (10.03%)
       10   Not Applicable               ( 3.46%)
        1   No response provided         ( 0.35%)

7.   I am satisfied with the quality of data provided by e-filed business returns, including
     the data provided via the XML applications.
       25   Strongly Agree               ( 8.65%)
     103    Agree                        (35.64%)
       83   Neither Agree nor Disagree (28.72%)
       31   Disagree                     (10.73%)
       20   Strongly Disagree            ( 6.92%)
       26   Not Applicable               ( 9.00%)
        1   No response provided         ( 0.35%)

8.   I am satisfied with the quantity of data provided by the e-filed business returns,
     including the data delivered via the LIN.
       23   Strongly Agree               ( 7.96%)
     119    Agree                        (41.18%)
       63   Neither Agree nor Disagree (21.80%)
       47   Disagree                     (16.26%)
       23   Strongly Disagree            ( 7.96%)
       12   Not Applicable               ( 4.15%)
        2   No response provided         ( 0.69%)


                                                                                    Page 26
                   Successfully Processing Large Corporate Tax Returns
             Electronically Was a Major Accomplishment, but Eliminating More
              Compliant Returns From the Audit Stream Is a Work in Progress



9.    I am satisfied with the quantity of data provided by the e-filed business returns,
      including the data delivered via the XML applications.
        25   Strongly Agree               ( 8.65%)
        95   Agree                        (32.87%)
        87   Neither Agree nor Disagree (30.10%)
        33   Disagree                     (11.42%)
        17   Strongly Disagree            ( 5.88%)
        25   Not Applicable               ( 8.65%)
         7   No response provided         ( 2.42%)

10.   I am satisfied with the timeliness of data provided by e-filed business returns,
      including the data provided via the LIN.
        60   Strongly Agree               (20.76%)
      168    Agree                        (58.13%)
        23   Neither Agree nor Disagree ( 7.96%)
        15   Disagree                     ( 5.19%)
         7   Strongly Disagree            ( 2.42%)
        13   Not Applicable               ( 4.50%)
         3   No response provided         ( 1.04%)

11.   I am satisfied with the timeliness of data provided by e-filed business returns,
      including the data provided via the XML applications.
         0   Strongly Agree               ( 0.00%)
      135    Agree                        (46.71%)
        72   Neither Agree nor Disagree (24.91%)
        15   Disagree                     ( 5.19%)
         6   Strongly Disagree            ( 2.08%)
        25   Not Applicable               ( 8.65%)
        36   No response provided         ( 12.46%)


                                                                                     Page 27
                   Successfully Processing Large Corporate Tax Returns
             Electronically Was a Major Accomplishment, but Eliminating More
              Compliant Returns From the Audit Stream Is a Work in Progress



12.   I find that e-filed business returns are providing revenue agents and others involved
      in the examination process with better information and tools to make their
      examination efforts more productive than working with paper-filed business
      returns.
        30   Strongly Agree              (10.38%)
      113    Agree                       (39.10%)
        63   Neither Agree nor Disagree (21.80%)
        49   Disagree                    (16.96%)
        21   Strongly Disagree           ( 7.27%)
         9   Not Applicable              ( 3.11%)
         4   No response provided        ( 1.38%)

13.   I am satisfied with the information generated from e-filed business returns.
        15   Strongly Agree              ( 5.19%)
      117    Agree                       (40.48%)
        64   Neither Agree nor Disagree (22.15%)
        61   Disagree                    (21.11%)
        22   Strongly Disagree           ( 7.61%)
        10   Not Applicable              ( 3.46%)

14.   I was satisfied with the training that has been provided for accessing and using
      e-filed business returns for examinations.
        11   Strongly Agree              ( 3.81%)
        64   Agree                       (22.15%)
        78   Neither Agree nor Disagree (26.99%)
        80   Disagree                    (27.68%)
        32   Strongly Disagree           (11.07%)
        22   Not Applicable              ( 7.61%)
         2   No response provided        ( 0.69%)



                                                                                     Page 28
                   Successfully Processing Large Corporate Tax Returns
             Electronically Was a Major Accomplishment, but Eliminating More
              Compliant Returns From the Audit Stream Is a Work in Progress



15.   I feel that e-filing of business returns has increased job satisfaction among
      employees.
         9   Strongly Agree                ( 3.11%)
        81   Agree                         (28.03%)
      118    Neither Agree nor Disagree (40.83%)
        50   Disagree                      (17.30%)
        22   Strongly Disagree             ( 7.61%)
         9   Not Applicable                ( 3.11%)

16.   I think the use of e-filing of business returns helps the Division to attract and
      maintain a highly skilled and satisfied workforce.
         4   Strongly Agree                ( 1.38%)
        53   Agree                         (18.34%)
      148    Neither Agree nor Disagree (51.21%)
        52   Disagree                      (17.99%)
        17   Strongly Disagree             ( 5.88%)
        14   Not Applicable                ( 4.84%)
         1   No response provided          ( 0.35%)

17.   Overall, I am satisfied with the electronic filing process for business returns.
        22   Strongly Agree                ( 7.61%)
      147    Agree                         (50.87%)
        58   Neither Agree nor Disagree (20.07%)
        38   Disagree                      (13.15%)
        16   Strongly Disagree             ( 5.54%)
         8   Not Applicable                ( 2.77%)




                                                                                          Page 29
                   Successfully Processing Large Corporate Tax Returns
             Electronically Was a Major Accomplishment, but Eliminating More
              Compliant Returns From the Audit Stream Is a Work in Progress



18.   When conducting examinations, what benefits do you find working with returns
      using the LIN and/or XML applications?
      •   Ability to look at comparative data over several years using XML applications.
      •   Able to get returns more quickly in the field.
      •   Able to review prior and subsequent years online.
      •   Able to share returns more easily with team members.
      •   Can see trends, possible errors, or omissions.
      •   Can view tax return prior to making an assignment.
      •   Faster pre-audit analysis of returns.
      •   LIN allows review of return without travel to the audit site.
      •   LIN provides a complete, transportable return.
      •   XML file can be manipulated by the CAS to provide meaningful reports for the
          agents.
      •   Timeliness is the primary benefit.
      •   Trend analysis comparisons.

19.   When conducting examinations what barriers do you find working with returns
      using the LIN and/or XML applications?
      •   LIN returns are not indexed.
      •   Not all pages of returns are available via LIN.
      •   Supporting schedules are poorly formatted.
      •   Additional training needed for XML application.
      •   Large returns are cumbersome to work through and find needed information.
      •   Lack of training on the use of and the ability to manipulate data on LIN system and
          XML application.
      •   Horrible organization of return information.
      •   Agents need hard copies, returns need to be printed.
      •   LIN returns are in a PDF format, which is difficult to work with or scroll through
          returns.

                                                                                         Page 30
                      Successfully Processing Large Corporate Tax Returns
                Electronically Was a Major Accomplishment, but Eliminating More
                 Compliant Returns From the Audit Stream Is a Work in Progress



      •     LIN lacks capacity to search the return, and returns lack schedules.
      •     LIN forces the classification process (issue selection) onto the manager.
      •     Information on LIN is too cumbersome to use. Easier to view a paper copy of return.
      •     Return information is not displayed in a tax return format and not complete.
      •     Not all information is transcribed to allow accurate classification.
      •     We need to be able to manipulate data more efficiently.
      •     Difficult to navigate, frequently need to print.
      •     Difficult to review returns with multiple subsidiaries.
      •     Difficult to classify large electronic returns.
      •     Have found errors on e-filed returns, believe this occurs if the taxpayer transmits
            more than one return due to an error notice.
      •     There is no application for classifiers and reviewers to fully access and navigate
            through an e-filed return, and thus to properly exploit the potential of XML data.
      •     The system is workable as is but could definitely be improved.
      •     The ability to search all e-filed returns was limited, making efforts to filter select
            returns ineffective.

20.   Do you have any suggestions to improve upon the accessing and use of e-filed
      returns?
          74    Yes (If yes, please describe) (25.61%)
          193   No                              (66.78%)
           22   No response provided            ( 7.61%)
      •     Lengthen the life of the LIN password.
      •     A tool or software that allows agents to review a return without having to use three
            different applications.
      •     Set up system where a table of contents can be hyperlinked to the appropriate tax
            return schedule or form.
      •     Ensure signature page is available for computation of statute date.
      •     Eliminate stacked returns and replace with consolidated schedules.


                                                                                               Page 31
             Successfully Processing Large Corporate Tax Returns
       Electronically Was a Major Accomplishment, but Eliminating More
        Compliant Returns From the Audit Stream Is a Work in Progress



•   Enhance LIN system so that superseded and amended returns that are e-filed are
    available to examination.
•   Have most recently filed returns get to the field more quickly. Often takes months to
    receive return on LIN and LB&I Division can no longer ask for return from taxpayer.
•   Improve ability to navigate to selected pages/areas of return.
•   Improve printing options for selected pages.
•   Make LIN file searchable.
•   More training on how to use the XML data.
•   Develop automatic systems to take the data on these returns from multiple years and
    generate reports that can be understood by agents and that will identify issues.
•   Make certain all schedules, forms, and elections are included with the LIN return.
•   More training so employees know the benefits and the limitations of e-filed returns.
•   Need additional data analysis functionality and sufficient training to use it.
•   Organize/print forms as they would appear if they were filed on hard copy.
•   Stop automatic sending of LIN links for subsequent year returns.
•   Provide better training.
•   Somehow bookmark the attached forms.
•   The fact that the electronic returns must be treated the same as the paper-filed returns
    limits the effective use of filters.
•   LIN was designed as a temporary system and needs to be updated, making it viable.
•   Need a better report generator so printed returns have all the information and are in a
    usable format.
•   Need the search function to work on PDFs for greater efficiency.
•   Easier way to download returns – large return has multiple downloads and then you
    must determine way to merge them.
•   Need summary amounts for detailed information.




                                                                                     Page 32
                         Successfully Processing Large Corporate Tax Returns
                   Electronically Was a Major Accomplishment, but Eliminating More
                    Compliant Returns From the Audit Stream Is a Work in Progress



21.       Is there anything else that you would like to add?
              31   Yes (If yes, please describe) (10.73%)
           238     No                               (82.35%)
              20   No response provided             ( 6.92%)
          •    LIN system and End User Portal could be more user friendly.
          •    Create additional training via ELMS3 or CENTRA sessions on the use of the LIN and
               XML process.
          •    E-FILE converter for International examiners in BETA testing should be released to
               the field and, once released, additional training should be provided.
          •    We imposed the e-file requirement without having a plan for what we would do with
               the returns.
          •    If the use of electronic returns is to be successful in conducting examinations, then
               the LIN returns must be complete with all attachments and schedules.
          •    IRS was totally unprepared to deliver returns to the field. E-filed consolidated
               corporate tax returns are organized in a completely different format than paper-filed
               returns.
          •    No adequate training has ever been provided.
          •    LIN and e-file are wonderful. Just need better data format.
          •    Need to make full use of available products.
          •    LB&I Division’s capability to use e-file data has been a complete failure, in terms of
               delivering returns with good potential and identifiable, high risk issues to the field
               examiners.
          •    Need consolidated statements – universal complaint from agents.
          •    E-filed returns do not include the consolidated return schedules that are helpful.
          •    Require all LB&I Division taxpayers to e-file and level the playing field.
          •    Return preparers who are not United States citizens are prevented from e-filing.
          •    E-FILE and LIN are excellent tools for the field.



3
    ELMS = Enterprise Learning Management System.
                                                                                               Page 33
                        Successfully Processing Large Corporate Tax Returns
                  Electronically Was a Major Accomplishment, but Eliminating More
                   Compliant Returns From the Audit Stream Is a Work in Progress



          •   Training on EUP,4 E-FILE, and XML should be given to agents.
          •   We need to maximize our use of electronic data.
          •   When LIN is sent to agent, beneficial to send account transcript and audit history
              simultaneously.
          •   IRS has not been able to exploit the use of e-file data because all taxpayers are not
              required to e-file and has not put in place applications to enable reviewers and
              auditors to efficiently read and analyze returns properly.
          •   Password issues with LIN.




4
    EUP = Employee User Portal.
                                                                                               Page 34
                   Successfully Processing Large Corporate Tax Returns
             Electronically Was a Major Accomplishment, but Eliminating More
              Compliant Returns From the Audit Stream Is a Work in Progress



                                                                               Appendix V

                             Glossary of Terms

       Term                                           Definition
Audit Information   A system that the IRS Examination function uses to control returns, input
Management          assessments and adjustments to the Master File, and provide management
System              reports.
Business Case       A document that summarizes numerous technical and business work
                    products, analyses, and studies that provide the basis for making
                    investment funding decisions and for monitoring and evaluating
                    performance.
Business Returns    A computer file of transcribed line items from all business returns and the
Transaction File    accompanying forms and schedules.
Business Rules      The policies and procedures that describe the operation of a business in
                    achieving its goals. These rules are used to detect potential
                    noncompliance of taxpayers and to rank or prioritize the issues based on
                    potential noncompliance.
Canada Revenue      The tax agency in Canada that collects Federal income taxes imposed
Agency              upon both individuals and corporations.
CENTRA              A web-based, virtual, e-Learning collaboration software that runs on the
                    Intranet to deliver lecture and content. It allows individuals from many
                    different locations to attend events, communicate and learn from their
                    workstations.
Comprehensive       A comprehensive approach to making business decisions based on
Issue Management    examination issues.
Strategy
Coordinated         One of the two categories of taxpayers in the LB&I Division, generally
Industry Case       involving the Nation’s largest taxpayers and usually examined by teams of
Program             IRS examiners.
Extensible Markup   A standardized way of storing, identifying, and transmitting data through
Language            the Internet.
Federation of Tax   An organization to improve the quality of State tax administration by
Administrators      providing services to State tax authorities and administrators.
Industry Case       One of the two categories of taxpayers in the LB&I Division, consisting of
Program             all LB&I Division taxpayers not classified as Coordinated Industry Cases
                    and generally assigned to one IRS examiner.


                                                                                       Page 35
                    Successfully Processing Large Corporate Tax Returns
              Electronically Was a Major Accomplishment, but Eliminating More
               Compliant Returns From the Audit Stream Is a Work in Progress




       Term                                           Definition
Large Business and   The workload delivery system that captures scanned images of currently
International        filed U.S. Returns of Partnership Income (Form 1065) and U.S.
Imaging Network      Corporation Income Tax Returns (Form 1120) and delivers them to
                     examiners in an electronic format. It also delivers e-filed returns to the
                     field.
Master File          The IRS database that stores various types of taxpayer account
                     information. It includes individual, business, and employee plans and
                     exempt organization data.
Modernized e-File    A replacement of the Internal Revenue Service tax return filing
System               technology with a modernized, Internet-based electronic filing platform.
                     This system also serves to streamline filing processes and reduce the costs
                     associated with paper tax returns.
No-Change            Indicates that the tax return was examined but there was not a change in
                     the tax liability or any adjustments.
Processing Year      The calendar year in which the tax return or document is processed by the
                     IRS.
Return Request and   Provides field agents with access to e-filed returns prior to them being
Display System       available on the Large Business and International Image Network.
Schema               The organization of data in a database; i.e., a blueprint of how a database
                     will be constructed.




                                                                                        Page 36
         Successfully Processing Large Corporate Tax Returns
   Electronically Was a Major Accomplishment, but Eliminating More
    Compliant Returns From the Audit Stream Is a Work in Progress



                                                     Appendix VI

Management’s Response to the Draft Report




                                                            Page 37
      Successfully Processing Large Corporate Tax Returns
Electronically Was a Major Accomplishment, but Eliminating More
 Compliant Returns From the Audit Stream Is a Work in Progress




                                                         Page 38
      Successfully Processing Large Corporate Tax Returns
Electronically Was a Major Accomplishment, but Eliminating More
 Compliant Returns From the Audit Stream Is a Work in Progress




                                                         Page 39
